HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of United Government Services,"(A-05-02-00087)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of United Government Services," (A-05-02-00087)
March 26, 2003
Complete
Text of Report is available in PDF format (428 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of United Government Services
(UGS).  Our review of the database estimated that $23.3 million of ineligible
SNF payments were made under the administrative responsibility of UGS during
calendar years 1997 through 2001.  The overpayments occurred because of
the absence of an automated cross-check, within the Centers for Medicare and
Medicaid Services' Common Working File and the Fiscal Intermediarys claims
processing systems, verifying that a three consecutive day inpatient hospital
stay occurred prior to SNF admission.  The UGS agreed with the findings
and recommendations presented in the report and will initiate recovery actions
for the inappropriate payments.